                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                   January 2012 Update


  Business Loans                                                      Department of Homeland Security Office of Inspector
                                                                      General (DHS OIG).
  Former Missouri Loan Compliance Officer Pleads Guilty
  On January 5, 2012, a former vice president and loan                Louisiana Man Sentenced for Theft of Government Funds
  compliance officer in Missouri pled guilty to a                     On January 10, 2012, a Louisiana man was sentenced to
  superseding information charging her with one count of              60 months probation, and ordered to pay a $100 special
  making a false statement to the SBA and aiding and                  assessment fee and $31,800 in restitution. He had
  abetting. According to the superseding information, she             previously pled guilty to one count of theft of
  assisted others in fraudulently securing a $1.6 million             government funds after providing false statements to the
  SBA loan by providing a false affidavit to the SBA. The             SBA and the Department of Housing and Urban
  affidavit stated that the borrowers had never been                  Development (HUD). The man had been approved for
  reported as 30-days past due when, in fact, they had been           an SBA disaster home loan of $141,800 for damage
  past due on multiple occasions. This is a joint                     caused by Hurricane Katrina. The investigation
  investigation with the Federal Bureau of Investigation              disclosed that he submitted false receipts to the SBA for
  (FBI).                                                              repairs to his home. This is a joint investigation with
                                                                      HUD OIG.
  Indictment Against Tire-Recycling Firm Owners
  Unsealed                                                            Louisiana Construction Company Owner Sentenced
  On January 30, 2012, a 15-count indictment charging                 On January 19, 2012, the owner of a Louisiana
  owners of a tire-recycling firm was unsealed. The                   construction company was sentenced to 18 months in
  indictment, which was originally filed on December 13,              prison, 3 years supervised release, and ordered to pay
  2011, charged one owner— from North Carolina— with                  restitution of $126,300. The owner had previously pled
  one count of conspiracy, eleven counts of wire fraud, one           guilty to one count of conspiracy to commit wire fraud.
  count of bank fraud, and two counts of false statements             The charges involve an SBA loan of $126,300 that
  involving loan applications. The second owner, from                 another couple received in order to rebuild or repair their
  Virginia, was charged with one count of conspiracy. The             residence, following damage by Hurricane Ike. The
  indictment alleges that the owners provided false and               borrowers gave power of attorney to the subject’s wife,
  fictitious loan application documents, invoices, and                the owner of a financial firm, to negotiate and finalize
  additional supporting documents to an Ohio bank and the             their SBA loan. The husband’s construction company
  SBA in order to secure a $1,715,600 SBA-guaranteed                  was responsible for completing the repairs. The
  loan for their business. This is a joint investigation with         investigation revealed that the couple drained the
  the FBI.                                                            borrowers’ bank account without finishing the work on
                                                                      the home. A review of invoices, cancelled checks, and
                                                                      paid receipts submitted to the SBA in support of loan
  Disaster Loans                                                      disbursements indicated that the items listed on the
                                                                      invoices had never been purchased and the cancelled
  Texas Man Pleads Guilty to Conspiracy for Invoice                   checks were fraudulent.
  Scheme
  On January 5, 2012, a Texas man pled guilty to
  conspiracy for his involvement in a fraudulent invoice              Louisiana Man Sentenced for Theft of Funds Related to
  scheme related to nearly $1 million in SBA disaster                 Hurricane Katrina
  loans. The subject had received a business loan to repair           On January 26, 2012, a Louisiana man was sentenced to
  or replace more than 40 rental properties allegedly                 6 months in a halfway house, 6 months home detention,
  damaged by Hurricane Ike. The investigation revealed                and 2 years supervised release. In addition, he was
  that he submitted fictitious receipts to the SBA totaling           ordered to pay nearly $55,603 in restitution, a $10,000
  nearly $680,000. This is a joint investigation with the

Monthly Update on Activities of the SBA Office of Inspector General
fine, and a $100 special assessment. On October 20,                   Former Chief Technology Officer Pleads Guilty to
2011, the subject pled guilty to one count of theft of                Conspiracy and Bribery of a Public Official
government funds after the investigation disclosed that               On December 19, 2011, the case against a chief
he misrepresented the location of his primary residence               technology officer was unsealed in U.S. District Court
when applying for Hurricane Katrina disaster assistance               for the District of Columbia. On September 20, 2011,
from the SBA, HUD, the Federal Emergency                              the subject pled guilty to an information charging him
Management Agency (FEMA), and both Louisiana and                      with conspiracy and bribery of a public official. The
Mississippi State Grant programs. The subject was                     investigation revealed that the chief technology officer
approved for an SBA loan of $88,800; however, only                    — and others — attempted to steer a major U.S. Army
$10,000 was disbursed. This is a joint investigation with             Corps of Engineers contract to their firm by paying or
the HUD OIG, the Department of Homeland Security                      receiving bribes or kickbacks, fraudulently inflating
OIG (DHS OIG), and the Mississippi State Grant                        orders to their firm and submitting false information to
Authority.                                                            the SBA, the Government Services Administration
                                                                      (GSA), and other federal agencies. This is a joint
Former New Orleans Pastor Pleads Guilty to Mail                       investigation with the FBI, the Army Criminal
Fraud and Theft of Government Funds                                   Investigations Division (CID), the IRS, the Defense
On January 26, 2012, the former pastor of a New Orleans               Criminal Investigative Service (DCIS), the DOL OIG,
church pled guilty to one count of mail fraud and one                 the GSA OIG, and the Veteran’s Administration OIG.
count of theft of government funds. The pastor applied
for an SBA disaster loan on behalf of his church that
sustained severe damage from Hurricane Katrina. The
initial loan amount of $500,000 was for the replacement
of equipment and rebuilding of the church. The pastor
later requested a loan increase due to rising construction                  Peggy E. Gustafson, Inspector General
costs in rebuilding the church. The SBA approved a
$463,900 loan increase, bringing the total loan amount to               If you are aware of suspected waste, fraud, or abuse
$963,900. The investigation revealed that the pastor used               in any SBA program, please report it online at
the funds to purchase two luxury vehicles, two pieces of                http://www.sba.gov/office-of-inspector-
real estate, certificates of deposit, designer clothing, fine           general/2662
jewelry, and other items for his personal use.
                                                                        Or call the OIG Hotline toll-free, at (800) 767-0385
Government Contracting & Business
Development                                                             The OIG has established an e-mail address,
Owner of Virginia Technology Firm Sentenced                             oig@sba.gov that we encourage the public to use to
On December 2, 2011, the owner of a technology firm                     communicate with our office. We welcome your
was sentenced to two years probation, a $20,000 fine,                   comments concerning this update or other OIG
and a $100 special assessment fee. In addition, the                     publications. To obtain copies of these documents
owner was ordered to cooperate with his removal from                    please contact:
the United States and to comply with a denaturalization
order. The subject had previously pled guilty to one                                         SBA OIG
count of procurement of citizenship or naturalization                              409 Third Street SW, 7th Floor
unlawfully and one count of false statements. His                                     Washington, DC 20416
business, an 8(a) certified firm, has received over $3                                 E-mail: oig@sba.gov
million in contracts set aside for 8(a) certified businesses.                    Telephone number (202) 205-6586
The investigation disclosed that he obtained falsified                             FAX number (202) 205-7382
U.S. citizenship documents from a DHS employee and
used the documents to obtain a Department of Defense                    Many OIG reports can be found on the OIG’s
(DoD) security clearance. These same documents also                     website
supported his claim of US citizenship on the firm’s 8(a)                http://www.sba.gov/office-of-inspector-general
application. This is a joint investigation with the DHS
OIG; DHS - Immigration and Customs Enforcement;
Department of State - Diplomatic Security Service, and
the Department of Labor (DOL) OIG.




Update on the Activities of the SBA Office of Inspector General   2                                       January 2012
